Supreme Court, U.S.
FILED

DEC 2 1 2020
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES
MICHAEL HERNANDEZ,
Petitioner,
v.

STATE OF FLORIDA,
Respondent.

PETITION FOR WRIT OF CERTIORARI

ON PETITION FOR A WRIT OF CERTIORARI
TO THE THIRD DISTRICT COURT OF APPEAL
FOR THE STATE OF FLORIDA

RECEIVED
2021
Michael HemjigKag^fpCi-ERK
Columbia C.I.
216 S.E. Corrections Way
Lake City, FL 32025

received

DEC 3 1 2020

FEB 2't 2021
gffcpFME COURT US*

Q

&

Questions Presented
1.

Whether Florida’s juvenile sentencing statute - which mandates a life sentence if a certain
finding is made and prohibits that sentence when that finding is not made - violates the
Sixth Amendment because it allows the trial judge to make that finding?

2.
o

Whether the First Amendment is violated when a court bases a sentence, in part, on a
defendant's taste in music when there is no independent evidence establishing a nexus
between his taste in music and a relevant sentencing factor?

* . >>

Table of Contents
Table of Authorities .

111

I.

Opinion Below

II.

Jurisdiction

III.

Relevant Constitutional and Statutory Provisions

IV.

Statement of the Case....

V.

Reasons for Granting the Petition

1
1
1
2
5

Question One
A.

The Third DCA's decision conflicts with Apprendi. This Court should grant
certiorari to resolve the conflict.
...
7.

Florida's Juvenile Sentencing Statute Violates Apprendi

2.

The Third DCA's Decision

3.

The Conflict .....

6
6
7

B.

This court should grant certiorari because this is an important question.

C.

The decision in this case is wrong and it is currently the law in Florida.
This Court should grant certiorari because only it can set the error straight.

D.

This is not Beckman. .

E.

This case is a more than adequate vehicle.

F.

Conclusion

9
9
11
12
13
14

Question Two
A.

The Third DCA's decision conflicts with Dawson. This Court should
grant certiorari to resolve the conflict.
7.

Dawson Requires Evidence OfA Nexus And No Such Evidence
Was Presented.

14

14

l

j

2.

The Conflict. .

15

B.

This court should grant certiorari because this is an important question.

C.

There are no obstacles to this Court's granting certiorari.

17

D.

Conclusion

17

.

Certificate of Service .

16

18

Appendix A - Decision Sought to Be Reviewed
Third District Court of Appeal Opinion, Hernandez v. State, 3D16-664
(Fla. 3d DCA2018)
Appendix B - First Time the Sixth Amendment Issue Was Raised
Motion to Empanel Jury Pursuant to the Sixth And Fourteenth Amendments
Appendix C - The Trial Court's Denial of the Motion to Empanel Jury
Order Denying Motion to Empanel Jury Pursuant to the Sixth and Fourteenth
Amendments
Appendix D - Transcripts Where Music Is Referenced
Direct Examination of Jesus Hernandez - p. 58 - 68
Direct Examination of Enrique Suarez -p.186-187
Cross-Examination of Michael Hernandez - p. 336 - 339
Cross-Examination of Keith Cruise - p. 427 - 429
Cross-Examination of Kathy Hernandez — p. 611 —616
State's Closing Argument - p. 685
Appendix E - Transcript of Oral Pronouncement of Sentence
Sentencing, February 22, 2016 - p. 6
Appendix F - Written Sentencing Order
Amended Sentencing Order - p. 17
Appendix G - Portions Of Initial and Reply Briefs Showing Nexus Argument Was Made

Initial Brief, p. 43-46
Reply Brief, p. 10-12
Appendix H - Order Denying Discretionary Review
Florida Supreme Court's August 14, 2020, Order Denying
Discretionary Review
Appendix I - Order to Show Cause - October 15, 2018

u

¥
Table of Authorities
Cases
Apprendi v. New Jersey,
530 U.S. 466 (2000) .

passim

Arce v. State,
251 So.3d 350 (Fla. 5th DCA 2018)
review denied SC18-1568 (Fla. August 14, 2020)

.

Beckman v. Florida,
18-6185 (2019)
Beckman v. State,
230 So.3d 77 (Fla. 3d DCA 2017)

10

11, 12
.

4, 6, 10

Beckman v. State,
review denied SCI 7-2060 (Fla. July 2, 2018)

10

Blakely v. Washington,
542 U.S. 296 (2004) .

6

Brown v. State,
231 So.3d 17 (Fla. 3d DCA 2017)
review denied SC17-1757 (Fla. September 21, 2018)

10

Copeland v. State,
240 So.3d 58 (Fla. 1st DCA 2018)
review denied SC 18-461 (Fla. August 14, 2020)

10

Dawson v. Delaware,
503 U.S. 159(1992) .

passim

Davis v. State,
45 Fla.L.Weekly D568 (Fla. 2d DCA 2020) .

10

Gonzalez v. State,
252 So.3d 1282 (Fla. 1st DCA 2018)
review denied SC18-1809 (Fla. August 14, 2020) .

10

Graham v. Florida,
560 U.S. 48 (2010)...............................................

3, 12

in

V
c2

Green v. State,
84 So.3d 1169 (Fla. 3d DCA 2012) .

17

Grimshaw v. State,
45 Fla.L.Weekly D581 (Fla. 2d DCA 2020) .

10

Hernandez v. State,
2018 Fla.App. LEXIS 6757 (Fla. 3d DCA2018)
review denied SC18-879 (Fla. August 14, 2020)

1, 10

Hurst v. Florida,
136 S.Ct 616 (2016)...............................................

12

Kohler v. Kansas,
18-6135 (2020)

12

Landrum v. State,
192 So.3d 459 (Fla. 2016)

.

9

Miller v. Alabama,
567 U.S. 460 (2012) .

3,7,9

People v. Hyatt,
891 N.W.2d 549 (2016)

7

Ring v. Arizona,
536 U.S. 584(2002) .

7

Roberson v. State,
247 So.3d 718 (Fla. lstDCA2018)
SC 18-1411 (Fla. August 14, 2020) .

10

Schneider v. Irvington,
308 U.S. 147(1939) .

16

Serrano v. State,
279 So.3d 296 (Fla. 1st DCA 2020);
case dismissed SC 19-1596 .

10

Simmons v. State,
267 So.3d 1067 (Fla. 1st DCA 2019)
review denied SC 19-824 (Fla. November 2, 2020) .

10

IV

s

\

V
Ward v. Rock Against Racism,
491 U.S. 781 (1989) .

14

White v. State,
111 So.3d 1023 (Fla. 4th DCA 2019).

10

Florida Constitution
Art. V §(3)(b)(3)

10

Federal Statute
28U.S.C. §1257(a)

.

1

Florida Statutes
§2014-220, Laws of Florida .
§775.082(l)(b)l., Fla.Stat. (2014)

3
.

passim

§921.1401 Fla.Stat. (2014) .

6, 8,11

Other Authorities
The Campaign for the Fair Sentencing of Youth
Tipping Point: A Majority ofStates Abandon
Life- Without-Parole Sentences For Children

9

Schafer, T, Sedlmeier P, Stadtler C, Huron, D.
(2013) The psychological functions of music listening. Front. Psychol. 4:511

15

v

PETITION FOR WRIT OF CERTIORARI
For a crime committed when he was fourteen, Michael Hernandez was sentenced to life
in prison, with a review after twenty-five years. This sentence was not only required once a
particular finding was made, but it could not be imposed without it. The jury, however, did not
make that finding; the judge did. And it based that finding, in part, on Hernandez's taste in music.
On appeal, Hernandez contended that this violated the First and Sixth Amendments to the U.S.
Constitution. The Third District Court of Appeal disagreed. Hernandez petitions this Court for a
writ of certiorari to review that judgment.
I.

Opinion Below
The opinion of the Third District Court of Appeal has not been officially published. It can

be found at Hernandez v. State, 2018 Fla.App. LEXIS 6757 (Fla. 3d DCA 2018).
II.

Jurisdiction
This Court has jurisdiction under 28 U.S.C. § 1257(a). Hernandez is claiming violations

of the First and Sixth Amendments to the United States Constitution. The issues were raised that
way in the Third DCA. That Court based its rejection of Hernandez’s claims on its interpretation
of those amendments and did not base it on an independent and adequate state ground.
This Petition is timely. The Third DCA issued its opinion on May 16, 2018. Hernandez
timely sought discretionary review of the Third DCA's judgment in the Florida Supreme Court.
See Hernandez v. State, SCI 8-879. The Florida Supreme Court denied review and issued its
order on August 14, 2020. On March 19, 2020, this Court extended the time to file a petition for
a writ of certiorari to 150 days from an order that denies discretionary review. To date, this order
has not been rescinded. As such, Hernandez's deadline is January 11, 2021.

1

’f*

III.

Relevant Constitutional and Statutory Provisions
Constitutional Provisions

First Amendment to the U.S. Constitution
Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of speech, or of the press; or
the right of the people peaceably to assemble, and to petition the Government for
a redress of grievances.
Sixth Amendment to the U.S. Constitution
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the assistance of counsel for his
defence.
Statutory Provision
§775.082(l)(b)l., Florida Statutes (2014)
A person who actually killed, intended to kill, or attempted to kill the victim and
who is convicted under s. 782.04 of a capital felony, or an offense that was
reclassified as a capital felony, which was committed before the person attained
18 years of age shall be punished by a term of imprisonment for life if, after a
sentencing hearing conducted by the court in accordance with s. 921.1401, the
court finds that life imprisonment is an appropriate sentence. If the court finds
that life imprisonment is not an appropriate sentence, such person shall be
punished by a term of imprisonment of at least 40 years. A person sentenced
pursuant to this subparagraph is entitled to a review of his or her sentence in
accordance with s. 921.1402(2)(a).

2

'1

IV.

Statement of the Case and Facts
The day after Hernandez turned fourteen, he was arrested for the murder of a classmate.

App. A, 2. Indicted for first-degree murder and charged as an adult, Hernandez was convicted
over four years later. Id. Based on the law in effect at the time, he received a mandatory sentence
of life without parole. Id.
He appealed. While that appeal was pending, this Court issued its decision in Miller v.
Alabama, 567 U.S. 460 (2012). In response, the Third District Court of Appeal vacated
Hernandez's life sentence and remanded him for resentencing in accordance with Miller.
Hernandez v. State, 117 So.3d 778, 786 (Fla. 3d DCA2013); App. A, 3.
Prior to Hernandez being resentenced, the Florida Legislature passed §2014-220, Laws of
Florida. This amended Florida's sentencing statutes to comply with the dictates of Graham v.
Florida, 560 U.S. 48 (2010) and Miller. The newly amended §775.082(l)(b)l., Fla.Stat. (2014),
provided that a juvenile defendant - like Hernandez - who intended to kill and actually did kill,
“shall be punished by a term of imprisonment for life if...the court finds that life imprisonment is
an appropriate sentence. Absent that finding, Hernandez could not be sentenced to life and
instead had to “be punished by a term of imprisonment of at least 40 years.” Id.
Hernandez moved to have a jury empaneled to decide his sentence. App. B. He argued
that the new juvenile sentencing statutes required factfinding before a life sentence could be
imposed and that Apprendi v. New Jersey, 530 U.S. 466 (2000) and its progeny required that this
factfinding be made by a jury. Id. The trial court denied this motion. App. C.
The State sought a life sentence. One of its primary reasons for doing so was Hernandez’s
taste in music (heavy metal). Over three days, the State presented the trial court with the lyrics of

3

: 'f

songs Hernandez listened to while waiting to be resentenced; played portions of the songs in
open court; questioned six out of the nine witnesses about the music; and relied on the music
during their closing argument. App. D. This evidence showed only that he listened to metal. Id.
A bit over two weeks later, finding that life was appropriate, the trial court imposed the
sentence that finding required: life. As a basis for its finding, the trial court relied, in part, on
Hernandez's taste in music. Finding heavy metal's sometimes graphic portrayal of violence some similar to the crime Hernandez was convicted of - contrary to “basic human decency,” the
court concluded that Hernandez would not have listened to that music if he “cared about the
victim or about the victim's family.” App. E. The trial court reiterated this sentiment in its written
sentencing order, where it noted that it found such music “disturbing” and showed Hernandez
“utterly lack[ed] empathy and remorse.” App. F.
Hernandez appealed his life sentence. He raised the Sixth Amendment issue he had raised
in the trial court. He also argued that the trial court's consideration of his taste in music, without
independent evidence establishing a nexus between it and a relevant sentencing factor, violated
the First Amendment and the decision in Dawson v. Delaware, 503 U.S. 159 (1992). App. G.
The Third DCA rejected Hernandez's arguments. Relying on its decision in Beckman v.
State, 230 So.3d 77 (Fla. 3d DCA 2017), the DCA found that the juvenile sentencing statutes did
not violate the Sixth Amendment or Apprendi. App. A, 7, 8. As to the First Amendment issue, the
DCA concluded that Hernandez's taste in music, in itself, was “directly relevant to his lack of
remorse, his indifference to the suffering of the victims and their families, and Hernandez's
prospects for rehabilitation.” App. A, 10.
Hernandez sought review in the Florida Supreme Court, which denied review. App. H.

4

* * *.

V.

Reasons For Granting The Writ

Question One
A.

The Third DCA's decision conflicts with Apprendi. This Court should grant
certiorari to resolve the conflict.
1.

Florida's Juvenile Sentencing Statute Violates Apprendi

In Apprendi, this Court held that “any fact that increases the penalty for a crime beyond
the prescribed statutory maximum must be submitted to a jury, and proved beyond a reasonable
doubt.” Id. at 490. “[T]he relevant inquiry is one not of form, but of effect-does the required
finding expose the defendant to a greater punishment than that authorized by the jury’s guilty
verdict?" Id. at 494.
Florida's juvenile sentencing statute has that effect. Under that statute, a life sentence is
contingent on a finding of appropriateness and that finding is not reflected in the jury's verdict.
Section 775.082(l)(b)l., Fla.Stat. (2014), provides that a juvenile defendant who
intended to kill and actually did kill, “shall be punished by a term of imprisonment for life if...the
court finds that life imprisonment is an appropriate sentence.” The statute then states that “[i]f
the court finds that life imprisonment is not an appropriate sentence, such person shall be
punished by a term of imprisonment of at least 40 years.”
This statute mandates a life sentence when the finding of appropriateness is made and
mandates a different sentence if it is not made. While shall can sometimes mean may, that is not
its meaning here. The next subsection of the statute - which applies to juveniles who do not kill,
attempt to kill, or intend to kill — states that they “may be punished by a term of imprisonment
for life...if...the court finds that life imprisonment is an appropriate sentence.” § 775.082(l)(b)2.,
Fla.Stat. (2004). The legislature would not use different terms to express the same meaning.

5

1 if

•>

By mandating a life sentence when the finding is made and a different sentence when it is
not, the statute has made life contingent on that finding. This is because life cannot be imposed
when the finding is not made since the different sentence must be. And if life cannot be imposed
when the finding is not made, then its imposition is contingent on that finding.
This finding is not reflected in the jury's verdict. First, the verdict reflects nothing more
than guilt of the crime charged as that was all the jury was instructed on and were told to decide.
Second, the Florida Legislature has enumerated the factors that must inform whether a life
sentence is appropriate. See, § 921.1401(2), Fla.Stat. (2014). Except for two of the factors - the
nature of the offense and the extent of the defendant's participation in it - no evidence was
presented about them at the trial and the jury was not instructed to consider them.
Because the trial court cannot impose a life sentence based solely on the facts reflected in
the jury's verdict, that sentence is not the statutory maximum for the applicable juvenile. Blakely
v. Washington, 542 U.S. 296, 303 (2004). And because the finding of appropriateness triggers the
imposition of that sentence, that finding “expose[s] the defendant to a greater punishment than
that authorized by the jury's guilty verdict[.]" Apprendi, at 494. This means it has to be found by
a jury beyond a reasonable doubt. Id. at 490.
Since the statute allows the trial court to make that finding, it violates the Sixth
Amendment.
2.

The Third DCA's Decision

The Third DCA did not see it that way. Instead, it rejected Hernandez’s Sixth Amendment
challenge based on its opinion in Beckman v. State, 230 So.3d 77, (Fla. 3d DCA 2016), where it
found “that Florida's juvenile sentencing [statutes] do[ ] not violate the Sixth Amendment under

6

Vi ()'

'*■

Apprendi and its progeny.” App. A, 7-8; Beckman, at 97.
In Beckman, the Third DCA adopted the reasoning in People v. Hyatt, 891 N.W.2d 549
(2016) as its own. Beckman, at 97. In Hyatt, the defendant argued that Michigan’s juvenile
sentencing statute violated Apprendi. The Michigan court rejected that argument for four reasons:
the imposition of a life sentence was not dependent on any factfinding; a life sentence was the
statutory maximum/within the statutory range; Miller did not impose a factfinding requirement
or alter the range of punishment; and both the statute at issue and Miller were mitigating. See,
Hyatt, at 564-565, 567, and 569-570. This reasoning is flawed.
First, as shown above, in Florida, a life sentence for the applicable juvenile is dependent
on factfinding, specifically on the finding of appropriateness.
Second, because it is dependent on factfinding and that fact is not reflected in the jury's
verdict, life is not the statutory maximum or within the range of available sentences. See,
Blakely, at 303; Ring v. Arizona, 536 U.S. 584, 604 (2002).
Third, it is irrelevant that Miller did not have those effects. The focus is on the statute that
authorizes the sentence, not the case that inspired it. To that end, what is relevant is whether
Florida’s juvenile sentencing statute has those effects. As detailed above, it does.
Fourth, for the same reason, whether Miller is considered mitigating is irrelevant. What is
relevant is whether Florida's juvenile sentencing statutes are mitigating. They are not.
When a juvenile is convicted of first-degree murder, the presumptive sentence is not life,
with the trial court then able to impose a lesser sentence after making particular findings. The
presumptive sentence — that is, the only sentence that can be imposed without additional findings
- is a term of years not equal to life and not less than forty.

7

11 <*■

f
Florida’s juvenile sentencing statutes are designed to allow a trial court to exceed that
sentence, not mitigate it. Per its express terms, it is only when a trial court seeks to impose a life
sentence that it must hold a hearing under §921.1401, Fla.Stat. See, §921.1401(1), Fla.Stat.
( Upon conviction [of specified offenses]...the court may conduct a separate sentencing hearing
to determine if a term of imprisonment for life...is an appropriate sentence”). That is, the purpose
of the hearing is to enable the trial court to make the finding that triggers the imposition of the
harshest sentence available. Those statutes are no more mitigating than Florida’s death penalty
statutes.
In sum, the Third DCA's reasoning is flawed and its conclusion about the
constitutionality of Florida's juvenile sentencing statutes is wrong.
3.

The Conflict

The Third DCA’s decision is more than just wrong, however. By upholding Florida's
juvenile sentencing statutes, the Third DCA has expressly approved of what the Sixth
Amendment and Apprendi forbid. As such, its decision is in conflict with Apprendi.
B.

This court should grant certiorari because this is an important question.
The right at issue - the right to a trial by jury - is among the most fundamental of our

constitutional guarantees. Indeed, as the only right guaranteed twice in the Constitution, it may
be the most fundamental. As this Court recognized in Apprendi, “[a]t stake...are constitutional
protections of surpassing importance.” Id. at 476.
The stakes get higher as the potential penalties increase. Here, the difference between the
presence of the finding and its absence is the difference between a single chance to avoid dying
in prison and a guarantee of freedom.

8

<-»

Hernandez is not the only juvenile facing such high stakes. While Hernandez does not
have exact numbers for Florida, one source placed the total number of juveniles who would be
affected by Miller at approximately 2, 800.1 Many of these must be in Florida, as mandatory
life-without-parole was the punishment for first-degree murder between 1994 and 2014. In
addition, the Florida Supreme Court has held that Miller and §775.082(l)(b.)l. applies to
discretionary life-without-parole sentences as well. Landrum v. State, 192 So.3d 459 (Fla. 2016).
This takes the number even higher, since second-degree murder has been able to be punished by
that sentence since 1983. And, of course, it is not just these juveniles who must be resentenced
that face these stakes, but the juveniles convicted of those crimes waiting to be sentenced as well.
An answer by this Court will affect the Sixth Amendment rights of every juvenile within
those groups that the State seeks a life sentence for. While it may not do so in all of the cases, it
will do so in some, if not most, of them.
Finally, this question will persist. It will be an issue every time a juvenile is convicted of
first- or second-degree murder and the State seeks a life sentence. While Hernandez does not
have the data on the rate of those factors, there does not seem to be any reason to expect either to
let up any time soon.
Every issue is important to the litigant presenting it. But given the above, this question is
also important enough for this Court to answer.
C.

The decision in this case is wrong and it is currently the law in Florida. This Court
should grant certiorari because only it can set the error straight.
This question concerns the constitutionality of a state statute. The only courts that can

directly review it are Florida's DCA's; its supreme court; and this Court.
1

The Campaign for the Fair Sentencing of Youth, Tipping Point: A Majority of States Abandon Life- WithoutParole Sentences For Children, p. 6.

9

♦1

V
All five of Florida's DCA’s have reviewed it, addressed it, and rejected it - and have done
so without any dissent.2 There is no reason to expect that any future panel of those courts will
rule differently.
Nine of the defendants who raised this question sought review in the Florida Supreme
Court. Except for one which was voluntarily dismissed, review was denied each time.3 There is
no reason to expect that the Florida Supreme Court will accept review the ninth or some
subsequent time its given the chance to. In fact, it likely will not be able to. Other than White and
Serrano, the opinions issued after Hernandez have not contained any analysis and have just cited
to prior decisions. The Florida Supreme Court does not have jurisdiction to review such
opinions. See, Art. V §(3)(b)(3), Florida Constitution (limiting discretionary review to opinions
that expressly declare a state statute valid or construe the federal constitution).
That leaves this Court as the only court that can answer this question. And given the
tendency just noted, this may be its last chance to do so. If it hasn't already started, it is only a
matter of time before juveniles who make this argument begin to be affirmed without even a
citation. If this Court does not intervene now, juveniles will continue to have one of their most
fundamental rights violated — only it will be in silence, with any further challenges precluded.

2 Beckman v. State, 230 So.3d 77 (Fla. 3d DCA 2017); Brown v. State, 231 So.3d 17 (Fla. 3d DCA 2017);
Copeland v. State, 240 So.3d 58 (Fla. 1st DCA 2018); Hernandez v. State, 2018 Fla.App. LEXIS 6757 (Fla. 3d
DCA 2018); Roberson v. State, 247 So.3d 718 (Fla. 1st DCA 2018); Arce v. State, 251 So.3d 350 (Fla. 5th DCA
2018); Gonzalez v. State, 252 So.3d 1282 (Fla. 1st DCA 2018); Simmons v. State, 267 So.3d 1067 (Fla. Is* DCA
2019); White v. State, 271 So.3d 1023 (Fla. 4th DCA 2019); Serrano v. State, 279 So.3d 296 (Fla. Is* DCA 2020);
Davis v. State, 45 Fla.L.Weekly D568 (Fla. 2d DCA 2020); Grimshaw v. State, 45 Fla.L.Weekly D581 (Fla 2d
DCA 2020).
3 Beckman v. State, SC17-2060 (Fla. July 2, 2018); Brown v. State, SC17-1757 (Fla. September 21, 2018);
Copeland v. State, SC18-461 (Fla. August 14, 2020); Hernandez v. State, SC18-879 (Fla. August 14, 2020);
Roberson v. State, SC18-1411 (Fla. August 14, 2020); Arce v. State, SC18-1568 (Fla. August 14,2020); Gonzalez
v. State, SC18-1809 (Fla. August 14, 2020); and Simmons v. State, SC19-824 (Fla. November 2, 2020). Serrano
v. State, SC19-1596, is no longer pending; the court dismissed the case upon the filing of a notice of voluntary
dismissal.

10

r

■>

D.

This is not Beckman
This Court recently denied certiorari review to Jason Beckman, the defendant in the Third

DCA's Beckman decision. Beckman v. Florida, 18-6185 (February 19, 2019).
Hernandez’s question is not the same as Beckman's, however. Hernandez is challenging
§775.082(1 Xb.) 1. where Beckman challenged §921.1401. See, Petition For a Writ of Certiorari,
Beckman v. Florida, 18-6185, p. i. These statutes are different, with different wording and,
therefore, in need of different analysis.
These differences mean that this Court has not already addressed this question and chosen
not to answer it. This also means that one of the main reasons the State gave to deny certiorari to
Beckman does not apply to Hernandez. The State repeatedly argued that §921.1401 “does not
require judges to make any factual findings before imposing a sentence of life...”; does not
contain “any factfinding directive at all;” and does not have “a fact-finding requirement for
purposes of applicable Sixth Amendment jurisprudence.” See, Brief in Opposition, Beckman v.
Florida, 18-6185, p. 12, 15, 18. Whatever the merits of that argument, it cannot be made about
§775.082(l)(b.)l. That statute expressly provides that the juvenile: “shall be punished by a term
of imprisonment for life” only

“if, after a sentencing hearing conducted by the court in

accordance with s. 921.1401, the court finds that life imprisonment is an appropriate
sentence.” (emphasis added).
Additionally, the legal landscape has changed. When this Court denied certiorari to
Beckman, his was the only case that had not been accepted for review by the Florida Supreme
Court; six cases were still pending. Further, two DCA's had yet to address this issue. Now, the
Florida Supreme Court has denied review in each of the cases that were pending and in an

11

o
<*

v
additional one. And every DCAhas addressed this issue and denied it.
Given the above, this Court's decision in Beckman v. Florida, should not influence its
decision here.
E.

This case is a more than adequate vehicle.
The question presented to this Court was preserved in the trial court and presented to the

DCA. The DCA addressed it and then rejected it based on its interpretation of the Sixth
Amendment and precedent from this Court interpreting that amendment and did not rely on an
independent and adequate state ground. There are, thus, no procedural problems with accepting
this case for review.
Hernandez will admit that this case does not present all the hallmarks of a certworthy
question. For instance, the question has not “intractably” split lower courts; the decision is not
from the state supreme court; and a more detailed analysis of the issue is contained in a case the
Third DCA relied on instead of in the decision itself. These features, however, have not stopped
this Court from granting certiorari before
In Hurst v. Florida, 136 S.Ct. 616 (2016), this Court granted certiorari even though there
was no split among lower courts about whether Florida's death penalty statutes violated the Sixth
Amendment. And in Graham v. Florida, this Court granted certiorari, even though the decision
to be reviewed was from a DCA instead of the Florida Supreme Court. Finally, this Court granted
certiorari in Kahler v. Kansas, 18-6135 (2020), even though the decision the Petitioner sought
review of relied on an analysis in a prior decision. See, Petition for a Writ of Certiorari, Kahler v.
Kansas, 18-6135, p. 17.
In the end, there are no procedural obstacles to this Court’s review. And it has granted

12

!> ‘ -'V

certiorari in similar cases before. While maybe not the “ideal” vehicle, this case provides a more
than adequate vehicle with which to answer the question presented.
F.

Conclusion
There may be juveniles for whom life is an appropriate sentence. And Florida may have

wanted its trial judges to make that determination. But applying Apprendi to Florida's juvenile
sentencing statute leads to one conclusion: the responsibility for making that determination lies
in the hands of the jury, not the judge.
Because a judge made that determination here, Hernandez’s Sixth Amendment right to
trial by jury was violated. Hernandez is not alone. It's been six years since those statutes were
passed and three since the first case approved them. To vindicate the violations that have
occurred and to prevent any more from occurring, this Court should grant certiorari.

13

'.-I,

V
Question Two
A.

The Third DCA's decision conflicts with Dawson. This Court should grant
certiorari to resolve the conflict.
1.

Dawson Requires Evidence OfA Nexus And No Such Evidence Was Presented

Evidence of conduct protected by the First Amendment can be used at sentencing, but
only if it demonstrates more than the defendant's abstract beliefs. Dawson, at 167. To make that
demonstration, the evidence must be relevant to the crime itself or accompanied by additional
evidence establishing a nexus between the protected conduct and a relevant sentencing factor. Id.
at 166-167.
Hernandez's taste in music is protected by the First Amendment. Ward v. Rock Against
Racism, 491 U.S. 781, 790 (1989). And as noted above, it was used against him at his
resentencing. Ultimately, his taste in music was found “relevant to his lack of remorse, his
indifference to the suffering of the victims and their families, and Hernandez's prospects for
rehabilitation.” App. A, 10.
There was no evidence presented establishing a nexus between his taste in music and any
of those factors. No evidence was presented about why Hernandez listened to heavy metal; what
he got from that type of music; what thoughts or actions that music generated in him; that he
endorsed what was expressed in the songs; or that he even knew what the lyrics were (the lyrics
to certain types of heavy metal are intentionally distorted to make them effectively
indecipherable). Nor did they present evidence of a similar type, but generalized to all listeners
of that music.
Without such evidence, it could not be said that Hernandez listened to heavy metal
because he lacked remorse; made him unable to feel remorse; or that doing so is associated with

14

\?S'' ,V'V
a lack of remorse. It could not be said that he listened to that music because he was indifferent to
the victims suffering; that it made him indifferent to their suffering; or that doing so is associated
with an indifference to the suffering of others. And it could not be said that listening to heavy
metal led Hernandez to commit the crime; that he listened to it because he wanted to commit
more crimes; that he endorsed the violence expressed in the music or listened to it because of its
violent content; or that listening to heavy metal was associated with an increased risk of criminal
behavior. All that could be said is that he listened to heavy metal.
Nor did the music itself provide the nexus. First, inferences from protected conduct are
not enough under Dawson. Id. at 168. Second, there are so many different reasons people listen
to music — one study found 129 non-redundant reasons4 — the bare fact a particular type of music
is listened to cannot provide any information beyond that.
Because no nexus evidence was presented, the evidence of Hernandez’s taste in music
demonstrated nothing more than his abstract beliefs. Thus, Hernandez’s First Amendment rights
were violated by its use at his resentencing.
2.

The Conflict

The Third DCA disagreed, finding that Hernandez’s First Amendment rights were not
violated because his taste in music was relevant to the above factors. Because that evidence was
not accompanied by additional evidence demonstrating a nexus to those factors, however, this
was error.
But it was also more than that. Dawson requires additional evidence and the Third DCA
did not. This is shown, first, by the fact that no such evidence was presented and the Third DCA

4 Schafer, T, Sedlmeier P, Stadtler C, Huron, D. (2013) The psychological functions of music listening. Front.
Psychol 4:511, p. 5-6.
15

upheld the use of Hernandez's taste in music anyway. And second, by its opinion. The DCA
converted his argument into a syllogism. App. A, 10. Absent from the syllogism was any
requirement that the music be accompanied by independent evidence establishing a nexus
between it and a relevant sentencing factor. Id. The DCA also found the music “directly
relevant,” which can only mean it found the music relevant in itself.
By upholding the use of protected conduct in the absence of nexus evidence, the Third
DCA has not just erred, it has failed to adhere to what this Court requires. It is, thus, in conflict
Wiih Dawson.
B.

This court should grant certiorari because this is an important question.
Hernandez will admit that this question does not have the standard characteristics that

define importance. There is no split on this question among lower courts; it is not a question this
Court has yet to answer; and it will not affect a large number of people.
But this question does concern an important right: the First Amendment right to freedom
of speech. As this Court has noted, the freedom of speech is a “fundamental personal right[ ] and
libert[y], the exercise of which “lies at the foundation of free government by free men.”
Schneider v. Irvington, 308 U.S. 147, 161 (1939). And it concerns a violation of that right this
Court should not ignore.
It is hard to imagine something more at odds with the First Amendment than being
sentenced, even if part, because of the music one listens to. This situation is worse than that,
however. Hernandez was being resentenced because he was a juvenile at the time the crime was
committed. His resentencing was meant to consider those characteristics that make juveniles
different and that counsel against sentencing them to life. And instead, his hearing turned into a

16

?

&

condemnation of the music he listened to twelve years after his arrest.
No one should face a lifetime of imprisonment for the bare fact that they listen to a
particular type of music - especially a juvenile. And no system of justice should countenance
such a result - especially in a country founded on the freedom speech.
Because even one person sentenced for the music they listen to is intolerable to that
which has defined this country since its inception, this question is not just important - it is
important enough for this Court to answer.
C.

There are no obstacles to this Court’s granting certiorari.
Hernandez presented his argument in the Third DCA how he is presenting it here: the

absence of nexus evidence between his music tastes and a relevant sentencing factor resulted in a
violation of his First Amendment rights. The Third DCA rejected that argument based on its
interpretation of this Court's First Amendment precedent and not on an independent and adequate
state ground. And while it was not preserved in the trial court, a trial court’s consideration of
constitutionally impermissible factors during sentencing constitutes fundamental error that can
be raised for the first time on appeal. Green v. State, 84 So.3d 1169 (Fla. 3d DCA 2012). Thus,
there are no procedural problems with accepting this case for review.
Hernandez will not repeat his position in question one about how this Court has accepted
cases without there being a split and that were from an intermediate appellate court. But that
position is equally applicable here.
Therefore, there is nothing in the way of this Court granting certiorari.
D.

Conclusion
Heavy metal is not for everyone. Its music can be abrasive and its lyrical content violent.

17

/ A~: ■*

And it can, at times, offend. But listening to it is not a crime - its protected by the First
Amendment. As a result, the bare fact of listening to it should not form any part of the basis for a
sentence, let alone a life sentence for a juvenile offender.
This was recognized in Dawson, where this Court required such evidence to be
accompanied by additional evidence showing the protected conduct was being used for
unprotected reasons. The Third DCA was not free to disregard that requirement. To bring that
court into compliance with that precedent and to ensure that no one's sentence is based, even in
part, on the music they listen to, this Court should grant certiorari.
CERTIFICATE OF SERVICE
Per 28 U.S.C. §1746,1 certify under penalty of perjury that a true and correct copy of the
foregoing was placed in the prison mailing system - in accordance with the applicable legal mail
rules and with first-class postage pre-paid - to the Office of the Attorney General, 1 S.E. 3rd Ave.,
Ste. 900, Miami, FI. 33131 and that the original was placed in the hands of prison officials for
mailing to the Clerk of Court, U.S. Supreme Court, 1 First St. NE, Washington, DC 20543, on
this QA day of

, 2020.

Michael Hernandez
Columbia C.I.
216 S.E. Corrections Way
Lake City, FI. 32025

18

